           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION

  ADMINISTRATIVE COSTS CLAIMED
     BY THE UTAH DISABILITY
    DETERMINATION SERVICES

     March 2009   A-07-09-19005




 AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                           SOCIAL SECURITY
MEMORANDUM

Date:      March 30, 2009                                                                    Refer To:

To:        Martha Lambie
           Acting Regional Commissioner
            Denver

From:      Inspector General

Subject:   Administrative Costs Claimed by the Utah Disability Determination Services
           (A-07-09-19005)


           OBJECTIVE

           Our objectives were to evaluate the Utah Disability Determination Services’ (UT-DDS)
           internal controls over the accounting and reporting of administrative costs, determine
           whether costs claimed by the UT-DDS were allowable and properly allocated and funds
           were properly drawn, and assess limited areas of the general security controls
           environment. Our audit included the administrative costs claimed by the UT-DDS
           during Federal Fiscal Years (FY) 2006 and 2007.

           BACKGROUND
           The Disability Insurance (DI) program, established under Title II of the Social Security
           Act (Act), provides benefits to wage earners and their families in the event the wage
           earner becomes disabled. The Supplemental Security Income (SSI) program,
           established under Title XVI of the Act, provides benefits to financially needy individuals
           who are aged, blind, and/or disabled.

           The Social Security Administration (SSA) is responsible for implementing policies for
           the development of disability claims under the DI and SSI programs. Disability
           determinations under both DI and SSI are performed by disability determination
           services (DDS) in each State and other responsible jurisdictions. Such determinations
           are required to be performed in accordance with Federal law and underlying
           regulations. 1 In carrying out its obligation, each DDS is responsible for determining
           claimants’ disabilities and ensuring adequate evidence is available to support its



           1
            Social Security Act §§ 221 and 1614, 42 U.S.C. §§ 421 and 1382c; see also 20 C.F.R. §§ 404.1601 et
           seq. and 416.1001 et seq.
Page 2 – Martha Lambie

determinations. To assist in making proper disability determinations, each DDS is
authorized to purchase medical examinations, X rays, and laboratory tests on a
consultative basis to supplement evidence obtained from the claimants’ physicians or
other treating sources.

SSA reimburses the DDS for 100 percent of allowable reported expenditures up to its
approved funding authorization. The DDS withdraws Federal funds through the
Department of the Treasury’s (Treasury) Automated Standard Application for Payments
system to pay for program expenditures. Funds drawn down must comply with Federal
           2
regulations and intergovernmental agreements entered into by Treasury and States
under the Cash Management Improvement Act of 1990. 3

An advance or reimbursement for costs under the program must comply with Office of
Management and Budget Circular A-87, Cost Principles for State, Local, and Indian
Tribal Governments. At the end of each quarter of the FY, each DDS is required to
submit a State Agency Report of Obligations for SSA Disability Programs (SSA-4513)
                                                                   4
to account for program disbursements and unliquidated obligations. The SSA-4513
reports expenditures and unliquidated obligations for Personnel Service Costs, Medical
Costs, Indirect Costs, and All Other Nonpersonnel Costs. 5

The Utah State Office of Rehabilitation is the UT-DDS’ parent agency. The UT-DDS is
located in Salt Lake City, Utah.

RESULTS OF REVIEW

Our evaluation of the UT-DDS’ controls over the accounting and reporting of
administrative costs disclosed that improvements were needed in the Medical Cost
process. Specifically, the UT-DDS made duplicate payments for consultative
examinations (CE) and medical evidence of record (MER), reimbursed CE providers at
a rate that exceeded the maximum rate allowed under Federal regulations, did not
follow its established criteria for incentive payments to CE providers, and needed to
improve its controls over the CE provider sanction process. Other costs claimed by the
UT-DDS during our audit period were allowable, properly allocated, and funds were
properly drawn.




2
    31 C.F.R. § 205.1 et seq.
3
    Pub. L. No. 101-453, 104 Stat. 1058, in part amending 31 U.S.C. §§ 3335, 6501, and 6503.
4
 SSA, POMS, DI 39506.201 and 202. POMS, DI 39506.200 B.4 provides, in part, that “Unliquidated
obligations represent obligations for which payment has not yet been made. Unpaid obligations are
considered unliquidated whether or not the goods or services have been received.”
5
    SSA, POMS, DI 39506.201 and 202.
Page 3 – Martha Lambie

Regarding general security controls, we found the UT-DDS needed to improve its
computer inventory controls. We also found the UT-DDS’ security plan was incomplete,
disaster recovery plan (DRP) had not been tested, spare office key management lacked
controls, and computer system back-up data were not stored off-site.

DUPLICATE MEDICAL PAYMENTS

During our audit period, the UT-DDS made duplicate CE and MER payments totaling
$6,280. Federal regulations provide that SSA “…will give the State funds…for
                                                         6
necessary costs in making disability determinations….” Duplicate payments do not
represent a necessary cost. According to the UT-DDS, the duplicate payments may
have occurred because invoice payment authorizations were cancelled and
subsequently reauthorized for payment without the UT-DDS first verifying a payment
had been made. For example, if a vendor contacts the UT-DDS alleging nonpayment
of an invoice, the UT-DDS can cancel the original authorization and reauthorize the
invoice for payment. If the original invoice was paid, a duplicate payment could result.
We recommend SSA instruct the UT-DDS to refund $6,280 in duplicate payments and
establish procedures that prevent future duplicate medical payments.

EXCESSIVE CE COSTS

During FY 2006, the UT-DDS spent $4,248 in excessive CE fees. The excessive fees
occurred because the UT-DDS reimbursed medical providers at a payment rate that
exceeded the maximum rate paid by Federal or other agencies in the State for one type
of CE. Specifically, for lumbar spine X rays the UT-DDS’ rate of payment exceeded the
rate paid by the Utah State Office of Rehabilitation.

                                          HIGHEST     NUMBER OF EXAMS
                            AMOUNT                                           EXCESS
             CE                           ALLOWAB      PURCHASED IN FY
                            DDS PAID                                          FEES
                                           LE FEE           2006
        Lumbar Spine
                               $90              $54         118               $4,248
           X ray


Federal regulations require that each State determine the payment rates for medical or
other services necessary to make determinations of disability. The rates may not
exceed the highest rate paid by Federal or other agencies in the State for the same or
similar types of service. 7 Further, the State is responsible for monitoring the rates of
payment for medical and other services to ensure the rates do not exceed the highest
rate paid by Federal or other agencies in the State. 8 We recommend SSA determine
whether it was necessary for the UT-DDS to exceed the highest allowable fee to obtain

6
    20 C.F.R. §§ 404.1626(a) and 416.1026(a).
7
    20 C.F.R. §§ 404.1624 and 416.1024.
8
    SSA, POMS, DI 39545.600 D.
Page 4 – Martha Lambie

lumbar spine X rays. If SSA determines it was not necessary for the UT-DDS to exceed
the highest allowable rate of payment, it should take appropriate action, such as
instructing the UT-DDS to refund the excess CE payments and limiting future CE rates
of payment to the highest allowable fee.

INCENTIVE PAYMENTS

During our audit period, the UT-DDS made incentive payments to CE providers that
were not in accordance with its own policy. SSA policy states that medical provider
contracts should require time standards for the receipt of reports, including incentive
             9
provisions. According to UT-DDS policy, an incentive payment of $20 is made to CE
providers if the CE report was received within 10 days of the date of the CE. 10 For 18
of the 47 incentive payments we reviewed, the CE report was not received within
10 days. 11 Therefore, the UT-DDS’ failure to follow its policy resulted in improper
incentive payments. We recommend SSA remind the UT-DDS to follow its established
policy for incentive payments.

SANCTION LISTING

The UT-DDS did not review the Health and Human Services, Office of Inspector
General (HHS/OIG) List of Excluded Individuals/Entities (LEIE) to ensure CE providers
it intended to use were not barred from participation in any Federal or federally assisted
program. The UT-DDS is at-risk of contracting with CE providers whose services have
been sanctioned by other Federal agencies if it does not review the HHS/OIG sanction
listing. SSA policy indicates that a qualified medical source must not be barred from
participation in Federal programs. 12 Also, underlying SSA procedures require that,
before using the services of any CE provider, DDSs must review the LEIE for each CE
provider and then at least annually. 13

The UT-DDS stated it was unaware of the requirement to review the HHS/OIG sanction
listing. Since learning of this requirement, the UT-DDS stated it will begin using the
HHS/OIG sanction listing. We recommend SSA instruct the UT-DDS to review the
HHS/OIG sanction listing to verify current CE providers are not sanctioned from
participation in any Federal or federally assisted program. We also recommend SSA
instruct the UT-DDS to review the HHS/OIG sanction listing as part of its CE provider
background check process.


9
    SSA, POMS, DI 39542.205 C.2.c.
10
     During FYs 2006 and 2007, the UT-DDS made incentive payments totaling approximately $240,000.
11
  In FY 2006, we found that 8 out of 21 incentive payments made to CE providers were for untimely
reports. For FY 2007, we found that 10 out of 26 incentive payments were for untimely reports.
12
     SSA, POMS, DI 39569.300 A.
13
     SSA, POMS, DI 39569.300 B.1 and 2.
Page 5 – Martha Lambie

INVENTORY CONTROLS

The UT-DDS did not maintain accurate and complete inventory records of computer
equipment. Specifically, SSA-purchased computer equipment was not included in the
official State inventory listing, and three surplus laptop computers were not listed in the
State surplus equipment system. Not maintaining adequate inventory records hinders
detection of stolen or misplaced equipment. SSA policy requires that all sensitive
                              14, 15
equipment be inventoried,            and SSA’s definition of sensitive equipment includes
computers. 16 The UT-DDS did not record SSA-purchased computer equipment in the
official State inventory system because, according to State policy, anything with a
purchase value of less than $5,000 did not have to be on the fixed-asset inventory. We
recommend SSA instruct the UT-DDS to work with its parent agency to ensure the
SSA-purchased computer equipment is tracked with an inventory system that complies
with the policies of SSA.

INCOMPLETE SECURITY PLAN

The UT-DDS’ security plan did not adhere to SSA’s policy requiring an eight-part
security plan, with each part containing specific information. 17 Because SSA’s policy for
an eight-part security plan was not followed, essential information was missing from the
UT-DDS’ security plan.

Specifically, the UT-DDS security plan was missing

1. a schedule on how new employees and contractors are trained;

2. instructions for the comprehensive integrity review process;

3. a description of SSA and UT-DDS responsibilities and a description of workload and
   workflow of the UT-DDS;

4. documented local resources needed to operate the UT-DDS in the event of a
   disaster; and

5. documented procedures for its review of the software lists/logs created from
   monitoring UT-DDS users.




14
     SSA AIMS Guide, MRM 04.04.04.
15
     20 C.F.R. §§ 404.1628 and 416.1028.
16
     SSA AIMS Guide, MRM 04.01.03.
17
     SSA, POMS, DI 39567.160 A and B.
Page 6 – Martha Lambie

Because the security plan is incomplete, there is a risk that critical business processes
are not protected or will not recover timely in the event of a disaster. A delay in creating
a complete security plan could result in a longer recovery period following a
catastrophic event. The UT-DDS stated it was unaware of SSA’s security plan
requirements. We recommend SSA work with the UT-DDS to ensure a security plan
meeting SSA requirements is completed timely.

DISASTER RECOVERY PLAN NOT TESTED
                                                                18
The UT-DDS’ DRP was not tested as set forth in SSA policy. The DRP documents
DDS data and personnel information involved in restoring system operations that are
vital to disaster recovery. As a result of not testing the DRP, there was a risk that
critical business processes were not protected or would not recover timely in the event
of a disaster. The UT-DDS did not have policies in place to ensure the testing of the
DRP. The UT-DDS’ delay in testing the DRP could result in a longer recovery period
following a catastrophic event. We recommend SSA work with the UT-DDS to ensure
the DRP is tested timely.

KEY MANAGEMENT

The UT-DDS did not have a system to log spare office keys. In fact, the keys were kept
in an unlocked drawer. Stolen or misplaced office keys could go undetected without
adequate internal controls over office keys. This also creates a risk of unauthorized
access to sensitive SSA information and systems and the interruption of service if the
systems are compromised. SSA policy states that office keys should be logged to
control their distribution. 19 The UT-DDS Security Officer stated he was not aware of the
requirement. We recommend SSA instruct the UT-DDS to maintain a log of all spare
office keys.

BACK-UP FILES

Back-up data from the UT-DDS’ computer system were not stored off-site. Although
the UT-DDS had taken precautions to store the back-up tapes in a fireproof container,
there remained a risk that the back-up data may be destroyed or be inaccessible under
certain conditions.




18
     SSA, POMS, DI 39567.195 C.
19
     SSA, POMS, DI 39567.040 A.
Page 7 – Martha Lambie

SSA security guidelines highly recommend that a copy of back-up data files be stored
         20
off-site. UT-DDS personnel stated that because they do not have encryption software
to back up of the computer system’s data, they would prefer not to move these tapes
off-site. However, additional DDS security guidelines permit the use of password
protection to safeguard back-up media if encryption is not possible. 21 We recommend
the UT-DDS work with SSA to determine whether it is feasible to encrypt or password-
protect the back-up tapes for off-site storage. If the DDS is unable to encrypt or
password-protect the back-up tapes, the regional office should ensure the back-up
tapes are adequately protected while on-site at the UT-DDS.

CONCLUSION AND RECOMMENDATIONS
Our evaluation of the UT-DDS’ controls over the accounting and reporting of
administrative costs disclosed that improvements were needed in the Medical Cost
process. Specifically, the UT-DDS made duplicate payments for CE and MER,
reimbursed CE providers at a rate that exceeded the maximum rate allowed under
Federal regulations, did not follow its established criteria for incentive payments to CE
providers, and needed to improve its controls over the CE provider sanction process.
Other costs claimed by the UT-DDS during our audit period were allowable, properly
allocated, and funds were properly drawn.

Regarding general security controls, we found the UT-DDS needed to improve its
computer inventory controls. We also found the UT-DDS’ security plan was incomplete,
DRP had not been tested, spare office key management lacked controls, and computer
system back-up data were not stored off-site.

We recommend the SSA Acting Regional Commissioner:

1. Instruct the UT-DDS to refund $6,280 in duplicate payments and establish
   procedures that prevent future duplicate medical payments.

2. Determine whether it was necessary for the UT-DDS to exceed the highest
   allowable fee to obtain lumbar spine X rays. If SSA determines it was not necessary
   for the UT-DDS to exceed the highest allowable rate of payment, it should take
   appropriate action, such as instructing the UT-DDS to refund the excess CE
   payments and limiting future CE rates of payment to the highest allowable fee.

3. Remind the UT-DDS to follow its established policy for incentive payments.

4. Instruct the UT-DDS to review the HHS/OIG sanction listing (a) to verify current CE
   providers are not barred from participation in any Federal or federally assisted
   program and (b) as part of its CE provider background check process.


20
     SSA, POMS, DI 39567.195 B.
21
     SSA, POMS, DI 39567.240.
Page 8 – Martha Lambie

5. Instruct the UT-DDS to work with its parent agency to ensure the SSA-purchased
   computer equipment is tracked with an inventory system that complies with the
   policies of SSA.

6. Work with the UT-DDS to ensure (a) a security plan meeting SSA requirements is
   completed timely and (b) the DRP is tested timely.

7. Instruct the UT-DDS to maintain a log of all spare office keys.

8. Work with the UT-DDS to determine whether it is feasible to encrypt or password-
   protect the back-up tapes for off-site storage. If the UT-DDS is unable to encrypt or
   password-protect the back-up tapes, SSA should ensure the back-up tapes are
   adequately protected while on-site at the UT-DDS.

AGENCY COMMENTS

SSA and the UT-DDS agreed with our recommendations. See Appendices C and D,
respectively, for the full text of SSA and UT-DDS’ comments.

OTHER MATTER
Personally Identifiable Information

The UT-DDS routinely disclosed disability claimants’ personally identifiable information
(PII) to vendors. The UT-DDS processes over 14,000 disability determinations each
FY. During the disability determination process, the UT-DDS purchases services
including CE, MER and claimant travel. Our review of medical and applicant travel
invoices revealed these documents contained PII including name, address, date of
birth, and Social Security number (SSN). Although we have no reason to believe this
information was abused, this practice could result in abuse of claimant’s PII.

Federal guidance dictates that agencies should reduce their current holdings of all PII
to the minimum necessary for the proper performance of a documented agency
function. 22 Agencies must also review their use of SSNs in agency systems and
                                                                                     23
programs to identify instances in which collection or use of the SSN is superfluous.




22
  Office of Management and Budget Memorandum M-07-16, Safeguarding Against and Responding to
the Breach of Personally Identifiable Information, Attachment 1 § B.1.a (page 2) indicates a few simple
and cost-effective steps to reduce the risks related to a data breach of PII, such as limiting access to only
those individuals who must have such access. Access is defined as the ability or opportunity to gain
knowledge of PII.
23
  Office of Management and Budget Memorandum M-07-16, Safeguarding Against and Responding to
the Breach of Personally Identifiable Information, Attachment 1 § B.2.a.
Page 9 – Martha Lambie

On October 5, 2007, SSA’s Office of Disability Determinations informed regional offices
that DDS’ should review their processes to eliminate the use of the SSNs on
correspondence where possible. Given the prevalence of identity theft, we encourage
the Utah State Office of Rehabilitation and UT-DDS to take steps to limit the disclosure
of PII (in particular, redact or truncate claimants’ SSNs) in all third-party
correspondence.




                                               Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Agency Comments
APPENDIX D – State Agency Comments
APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                               Appendix A

Acronyms
Act           Social Security Act
AIMS          Administrative Instructions Manual System
CE            Consultative Examination
C.F.R.        Code of Federal Regulations
DDS           Disability Determination Services
DI            Disability Insurance
DRP           Disaster Recovery Plan
FY            Fiscal Year
HHS           Health and Human Services
LEIE          List of Excluded Individuals/Entities
MER           Medical Evidence of Record
MRM           Materiel Resources Manual
OIG           Office of the Inspector General
PII           Personally Identifiable Information
POMS          Program Operations Manual System
Pub. L. No.   Public Law Number
SSA           Social Security Administration
SSA-4513      State Agency Report of Obligations for SSA Disability Programs
SSI           Supplemental Security Income
SSN           Social Security Number
Treasury      Department of the Treasury
U.S.C.        United States Code
UT-DDS        Utah Disability Determination Services
                                                                     Appendix B

Scope and Methodology
SCOPE
To achieve our objective, we:

   •   Reviewed applicable Federal laws and regulations, pertinent parts of the Social
       Security Administration’s (SSA) Program Operations Manual System and other
       criteria relevant to administrative costs claimed by the Utah Disability
       Determination Services (UT-DDS), and the draw down of SSA program
       appropriations.

   •   Interviewed staff at the Utah State Office of Rehabilitation and the UT-DDS.

   •   Reviewed State policies and procedures related to personnel, medical services,
       and all other nonpersonnel costs.

   •   Evaluated, tested, and documented internal controls regarding accounting,
       financial reporting, and cash management activities.

   •   Reconciled State accounting records to the administrative costs reported by the
       UT-DDS on the State Agency Report of Obligations for SSA Disability Programs
       (SSA-4513) for Federal Fiscal Years (FY) 2006 and 2007.

   •   Examined specific administrative expenditures (Personnel, Medical Services,
       and All Other Nonpersonnel Costs) incurred and claimed by the UT-DDS for
       FYs 2006 and 2007 on the SSA-4513. We used statistical sampling to select
       expenditures to test for support of the Medical Service and All Other
       Nonpersonnel Costs, as discussed below.

   •   Examined the indirect costs claimed by UT-DDS for FYs 2006 and 2007.

   •   Compared the amount of SSA funds drawn to support program operations to the
       expenditures reported on the SSA-4513.

   •   Determined whether selected funds from cancelled warrants were properly
       returned to SSA.

   •   Determined whether unliquidated obligations were properly supported.




                                          B-1
   •   Reviewed the UT-DDS’ general security control.

   •   Reviewed Office of Management and Budget guidance related to safeguarding
       personally identifiable information.

We determined the data provided by the State Office of Rehabilitation and UT-DDS
used in our audit were sufficiently reliable to achieve our audit objectives. We
assessed the reliability of the data by reconciling them with the costs claimed on the
SSA-4513. We also conducted detailed audit testing on selected data elements in the
electronic data files.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives. We conducted fieldwork from March through October 2008.

METHODOLOGY

SAMPLING METHODOLOGY

The sampling methodology encompassed the four general areas of costs reported on
the SSA-4513: (1) Personnel, (2) Medical, (3) Indirect, and (4) All Other Nonpersonnel
Costs. We obtained a data extract of all costs and the associated invoices for
FYs 2006 and 2007 for use in statistical sampling. This was obtained from the
accounting systems used in the preparation of the SSA-4513.

Personnel Costs

We randomly selected one pay period, with a pay period end date of October 20, 2006,
for review. We then selected a random sample of 50 regular employees for review and
testing of the payroll records. For medical consultant costs, we also selected the pay
period end date of October 20, 2006, for review. We then selected all 18 medical
consultants for review and testing of the payroll records.

Medical Costs

We sampled 100 items (50 items from each of FYs 2006 and 2007) using a stratified
random sample of medical costs based on the proportion of medical evidence of record
and consultative examination costs to the total medical costs claimed.




                                          B-2
Indirect Costs

UT-DDS indirect costs are computed by applying a federally approved rate to a cost
base. 1 This methodology was approved by the U.S. Department of Education, which is
the Federal agency designated to negotiate and approve the indirect cost rate. On the
final SSA-4513s, the UT-DDS claimed indirect costs of $572,380 for FY 2006 and
$640,195 for FY 2007. We reviewed the FY 2006 and 2007 indirect cost calculations to
ensure the correct rate was applied.

All Other Nonpersonnel Costs

We sampled 105 items (53 expenditures from FY 2006 and 52 from FY 2007) using a
stratified random sample. The random sample was based on the proportion of costs in
each of the cost categories to the total costs claimed.




1
    Total direct salaries, wages, and fringe benefits.


                                                         B-3
                  Appendix C

Agency Comments
Wed Mar 18, 2009

Signed Formal Draft Report (A-07-09-19005) - Denver's Reply



       Patrick,
       Thank you for the opportunity to review the draft report, “Administrative Costs
       Claimed by the Utah Disability Determination Services” (A-07-09-19005)
       #22008026. The Utah DDS has responded to the specific recommendations, a
       copy of which is attached. The Social Security Administration (Denver Regional
       Office) is establishing timelines to ensure all actions are completed. Following
       are our comments on the specific findings:

       1. Instruct the UT-DDS to refund $6,280 in duplicate payments and establish
       procedures that prevent future duplicate medical payments.

       Comment: The DDS has already taken steps to prevent this situation from
       happening in the future, as outlined in the attached response from Utah. The
       DDS is planning on refunding this amount by using the ASAP system and filing
       corrected forms SSA-4513 for the fiscal years involved. We require additional
       information from the auditors on how the amount requested should be divided
       between Fiscal Years 2006 and 2007. This information should be added to the
       OIG report.

       2. Determine whether it was necessary for the UT-DDS to exceed the highest
       allowable fee to obtain lumbar spine x-rays. If SSA determines it was not
       necessary for the UT-DDS to exceed the highest allowable rate of payment, it
       should take appropriate action, such as instructing the UT-DDS to refund the
       excess CE payments and limiting future CE rates of payment to the highest
       allowable fee.

       Comment: We support the actions of the Utah DDS regarding these fees. The
       Utah DDS CE Fee Schedule was reviewed and approved by Social Security.
       Our regional office fiscal analyst approved the fees charged for lumbar spine
       X-rays as being necessary; the DDS should not be asked to refund the amount
       recommended in the audit. In the future, the Utah DDS will use the fee
       schedules of the Utah State Office of Rehabilitation and the Utah Department of
       Health & Workforce Services. Use of these schedules will limit future CE rates
       to the highest allowable fee. Since the questionable costs were based on fee
       schedules approved by Social Security, refund of the $4,248 is not being
       requested.




                                                 C-1
3. Remind the UT-DDS to follow its established policy for incentive payments.

Comment: Completed; Utah DDS reminded of the importance of following
established policy.

4. Instruct the UT-DDS to review the HHS/OIG sanction listing (a) to verify
current CE providers are not barred from participation in any Federal or federally
assisted program and (b) as part of its CE provider background check process.

Comment: the Utah DDS has begun reviewing sanction listings when evaluating
prospective CE providers. The Social Security Administration (Denver Regional
Office) will work with the Utah DDS to ensure current CE providers are not on the
sanction list. The Denver Regional Office will control for completion.

5. Instruct the UT-DDS to work with its parent agency to ensure the SSA-
purchased computer equipment is tracked with an inventory system that
complies with the policies of SSA.

Comment: The Utah DDS will include SSA purchased equipment, including
equipment currently in the DDS, in the Parent Agency inventory system. The
Denver Regional Office will control to ensure completion.

6. Work with the UT-DDS to ensure (a) a security plan meeting SSA
requirements is completed timely and (b) the DRP is tested timely.

Comment: The Utah DDS is revising their Security Plan to meet SSA
requirements and will perform appropriate tests. Please refer to Utah's response
for specific features that will be included in the revised plan. The Denver
Regional Office will control for completion.

7. Instruct the UT-DDS to maintain a log of all spare office keys.

Comment: The Utah DDS is now logging spare keys and housing those in a
locked drawer.

8. Work with the UT-DDS to determine whether it is feasible to encrypt or
password protect the back-up tapes for off-site storage. If the DDS is unable to
encrypt or password-protect the back-up tapes, SSA should ensure the back-up
tapes are adequately protected while on-site at the UT-DDS.

Comment: The Utah DDS is working with SSA to encrypt or password protect
these tapes. The Denver Regional Office will control for completion.




                                    C-2
9. Other Matter: "[W]e encourage the Utah State Office of Rehabilitation and
UT-DDS to take steps to limit the disclosure of PII (in particular, redact or
truncate claimants’ SSNs) in all third-party correspondence."

Comment: Social Security will work with the Utah DDS to reduce their current
holdings of PII to the minimum necessary for the proper performance of a
documented agency function.
Please let me know if you need additional information. Staff questions may be
directed to Susan Neitzert, Center for Disability, at (303) 844-7100.
Martha Lambie
Acting Regional Commissioner, Denver




                                   C-3
                        Appendix D

State Agency Comments
February 24, 2009


Patrick P. O’Carroll, Jr.
Inspector General
Social Security Administration
Baltimore, Maryland 21235-0001

As requested in your letter of February 20, 2009 regarding the audit of the Utah Disability
Determination Services, please find below our comments regarding the recommendations in the
report. We would like to thank Doug Kelly and Nick Moore for a very comprehensive and fair
evaluation of the administrative costs claimed by the Utah DDS.

Duplicate Medical Payments
All requests for warrant reviews and payment reviews are now handled by a single individual.
This person is responsible for making sure that the vendors are listed properly for payment and
that if payment is made correctly. It is the usual practice to obtain a copy of the warrant in
question before any new or additional payment is authorized. At this point in time with the
electronic system we now use it is a very low probability that duplicate payments are made. The
switch to a single person to insure a correct payment process was instituted to address the prior
possibility of missed and duplicate payments.

Excessive CE Costs.
Since 1994, the Utah DDS Fee Schedule has been reviewed and approved by the Regional
Office. In the future it is planned to primarily use the fee schedule of the Utah State Office of
Rehabilitation for laboratory and x-ray tests, and the Utah Department of Health and Department
of Workforce Services fee schedule for physical and mental testing as the maximum amount we
will pay unless we receive approval through our Regional Office. Whenever possible, DDS will
continue to try to pay under maximum allowed. Two fee schedules are required since the Utah
State Office of Rehabilitation does not have many of the physical and mental CE’s DDS orders
on their fee schedule.

Incentive Payments
Utah DDS had a process in place during the audit period that would allow for holiday and
weekend days for the receipt of records, allowing initial 1-2 day leeway for reports to come in by
mail for these days. DDS also had a process where multiple people were paying CE payments.
To address these potential sources of error, the CE payments are completed by one individual
who is primarily responsible for CE payments, one other individual who is a backup, and a
support payment person. After reviewing current policy, it was decided to revise policy to allow



                                               D-1
payment of the early reporting fees to reports received within 12 calendar days after the
examination so there is no question about timeframes.

Sanction Listing
DDS will include the HHS/OIG sanction listing as part of the provider background check
process.

Inventory Controls
This has been discussed with the parent agency and DDS will include the SSA purchased
computer equipment and be tracked by the parent agency inventory system.

Incomplete Security Plan
The Utah DDS Security Plan will be revised to include all of SSA’s security plan requirements
and specifically address:
       1. a schedule on how new employees and contractors are trained;
       2. instructions for the comprehensive integrity review process;
       3. a description of SSA and UT-DDS responsibilities and a description of workload and
           workflow of the UT-DDS;
       4. documented local resources needed to operate the UT-DDS in the event of a disaster;
       5. documented procedures for its review of the software lists/logs created from
           monitoring UT-DDS users.

Disaster Recovery Plan Not Tested
The Utah DDS Disaster Recovery Plan will be tested according to SSA requirements specifically
including policies to insure the timely testing of the Utah DRP.

Key Management
The Utah DDS now has and will maintain a log of all spare office keys and the spare keys will be
kept in a locked desk drawer. This was facilitated by a move to a new facility in late October
2008 which has allowed DDS to start from scratch on key management.

Back-up Files
The Utah DDS will work with the regional office to either encrypt or password-protect back-up
tapes for off-site storage or to ensure back-up tapes are adequately protected while on-site at the
Utah DDS. Since the audit, the Utah DDS has moved to a new facility which has significantly
increased the adequacy of on-site storage.




Donald R. Uchida
Executive Director

pc: Gary Nakao, Director, Utah DDS



                                                D-2
                                                                     Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Mark Bailey, Director, Kansas City Audit Division

   Ron Bussell, Audit Manager, Kansas City Audit Division

Acknowledgments

In addition to those named above:

   Doug Kelly, Auditor-in-Charge

   Nick Moore, Auditor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-07-09-19005.
                              DISTRIBUTION SCHEDULE


Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government Reform


Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions and
Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                 Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                           Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                          Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
